                                                      U.S. Department of Justice


                                                      United States Attorney
                                                      District of Maryland
                                                      Northern Division


Rod J. Rosenstein                                     36 South Charles Street                      410-209-4800
United States Attorney                                Fourth Floor                       TTY/TDD:410-962-4462
                                                      Baltimore, Maryland 21201                    410-209-4885
Vickie E. LeDuc                                                                                FAX 410-962-3091
Public Information Officer                                                               Vickie.LeDuc@usdoj.gov


August 24, 2009
FOR IMMEDIATE RELEASE                                 Contact AUSA VICKIE E. LEDUC or
http://www.usdoj.gov/usao/md                          MARCIA MURPHY at (410) 209-4885


     ARMY OFFICER AND TWO CIVILIANS CHARGED IN TWO YEAR SCHEME
                   TO DEFRAUD SEVERAL COMPANIES

             Asset Forfeiture Indictment Seeks to Recover $4 Million in Criminal Proceeds

       Greenbelt, Maryland - A federal grand jury indicted a U.S. Army warrant officer and
two defendants today on charges that they defrauded several companies in a scheme involving
multi-million dollar contracts, announced United States Attorney for the District of Maryland
Rod J. Rosenstein.

       “This indictment alleges that an Army warrant officer conspired with two other men to
defraud finance companies by falsely representing that services had been provided to the
government,” said U.S. Attorney Rod J. Rosenstein. “We seek to hold the perpetrators
accountable and forfeit the stolen money so that it can be returned to the victims.”

        “Money laundering is a global threat, fuel for criminals to conduct their criminal affairs
and is used to manipulate and erode our financial systems,” stated Special Agent in Charge C.
Andre' Martin, Internal Revenue Service - Criminal Investigation. "The IRS-Criminal
Investigation is united with the rest of the law enforcement community in our resolve to
financially disrupt criminal organizations that commit crimes against our society and economy."

       "Investigations involving complex contract fraud schemes continue to be a prime focus of
the Defense Criminal Investigative Service," said Acting Special Agent in Charge Robert Craig
of the Mid-Atlantic Field Office. "Individuals who allegedly present themselves as legitimate
companies with the intent to falsely obtain ‘contracts’ for illegal monetary gains will
aggressively be investigated by DCIS Special Agents. The results of this investigation to date
are proof of the Defense Criminal Investigative Service's commitment to working with the
United States Attorney's Office and law enforcement partners to combat allegations of illegal
contract fraud."

       According to the 19 count indictment, Federal National Payables, Inc. (FNP) and
Associated Receivables Funding, Inc. (ARF) were accounts receivables finance companies (“the
factoring companies”) that purchased account receivables from government contractors. FNP
maintained offices in Bethesda, Maryland; ARF maintained offices in Greenville, South
Carolina. From November 2007 to July 2009, defendants Rafael C. Simmons, age 30, of Laurel,
Maryland and of Texas; Rodney A. Mathis, age 33, of Stafford, Virginia; and Dejuan A.
Fountain, age 38, of Douglasville, Georgia, falsely represented to the factoring companies and
other finance companies that business entities associated with Simmons had obtained legitimate
multi-million dollar government contracts. The business entities associated with Simmons
allegedly supplied telecommunications services, IT support services and other services to the
United States government.

        The indictment further alleges that the defendants caused the factoring companies to
agree to make partial advance payments to the business entities on the false pretense that the
businesses had assigned their purported “interest” in U.S. government contract claims to those
factoring companies. Payments made by the factoring companies were directed to bank accounts
controlled by the defendants.

        According to the indictment, Mathis falsely held himself out as the contracting officer for
the U.S. Army to convince the factoring companies that a genuine government contract existed
and that government payments would be made to the factoring companies. Fountain, who was
an active duty Army warrant officer responsible for communications security, also falsely held
himself out as a financial officer for the Army and as a secretary and CEO of a business entity
associated with Simmons, in order to entice the factoring companies to make advance payments.

        Simmons and Mathis allegedly caused payments to be made to the factoring companies
from bank accounts controlled by the defendants, and made such payments appear as if they
were from the government, thereby deceiving the factoring companies into believing that
legitimate government contracts existed. Fountain and Mathis allegedly used Army email
addresses to falsely represent to factoring companies that government payments on the
“government contract” were delayed or misdirected.

        The indictment seeks forfeiture of $4,022,263.16 and two vehicles in connection with the
fraud scheme.

        All three defendants face a maximum sentence of 20 years in prison and a fine of
$250,000 for each of seven counts of wire fraud. Simmons is charged with an additional count
of wire fraud and four counts of mail fraud, which carries the same penalties, and also faces 10
years in prison and a fine of $250,000 or twice the amount of the criminally-derived property for
each of seven counts of money laundering. The defendants were originally charged by criminal
complaint and released pending trial.

        United States Attorney Rod J. Rosenstein praised the Federal Bureau of Investigation, the
Internal Revenue Service - Criminal Investigation, the Defense Criminal Investigative Service
and the U.S. Department of Transportation - Office of Inspector General for their investigative
work. Mr. Rosenstein thanked Assistant U.S. Attorney David I. Salem, who is prosecuting the
case.
